      Department of Homeland Security





            Homeland Security Information Network 

               Improvements and Challenges 





OIG-13-98                                             June 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      June 13, 2013

MEMORANDUM FOR:              Richard Chávez
                             Director
                             Office of Operations Coordination and Planning

FROM:                        Frank Deffer
                             Office of Assistant Inspector General
                             Information Technology Audits

SUBJECT:                     Homeland Security Information Network Improvements
                             and Challenges

Attached for your information is our final report, Homeland Security Information
Network Improvements and Challenges. We incorporated the formal comments from
the Director, Office of Operations Coordination and Planning in the final report.

The report contains three recommendations aimed at improving the Homeland Security
Information Network. Your office concurred with all three recommendations. As
prescribed by the Department of Homeland Security Directive 077-01, Follow-Up and
Resolutions for Office of Inspector General Report Recommendations, within 90 days of
the date of this memorandum, please provide our office with a written response that
includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target
completion date for each recommendation. Also, please include responsible parties and
any other supporting documentation necessary to inform us about the current status of
the recommendation. Until your response is received and evaluated, the
recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Richard Harsche, Director,
Information Management Division, at (202) 254-5448.

Attachment
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   

   Executive Summary............................................................................................................. 1 


   Background ......................................................................................................................... 2 


   Results of Audit ................................................................................................................... 5 


              HSIN Planning and Governance Progress ............................................................... 5 


              HSIN Release 3 Schedule Challenges .................................................................... 10 


              System Use............................................................................................................ 13 

              Recommendations ................................................................................................ 20 

              Management Comment and OIG Analysis............................................................ 21 

    

   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 23 

              Appendix B:          Management Comments to the Draft Report ............................... 25 

              Appendix C:          Major Contributors to This Report ................................................ 27 

              Appendix D:          Report Distribution........................................................................ 28 

    

   Abbreviations
              CIO                   Chief Information Officer
              COI                   Community of Interest
              DHS                   Department of Homeland Security
              GAO                   Government Accountability Office
              HSIN                  Homeland Security Information Network
              HSIN NextGen          Next Generation of the Homeland Security Information Network
              I&A                   Office of Intelligence and Analysis
              IT                    information technology
              JRIES                 Joint Regional Information Exchange System
              NOC                   National Operations Center
              OCIO                  Office of the Chief Information Officer
              OIG                   Office of Inspector General
              OMB                   Office of Management and Budget
              OPS                   Office of Operations Coordination and Planning
              SLIC                  State and Local Intelligence Community



www.oig.dhs.gov                                                                                                                  OIG-13-98
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The Homeland Security Information Network is a secure, unclassified Internet portal
   that enables information sharing and collaboration across the homeland security
   enterprise. In 2006 and 2008, we reported on challenges that the Department of
   Homeland Security (DHS) faced to define the system’s role, meet user requirements,
   provide user support, and increase system use. We conducted a followup audit of this
   system to determine the progress made and the system’s effectiveness in supporting
   information sharing among select stakeholders. Appendix A describes the present
   audit’s scope and methodology.

   Since 2008, DHS has made progress in addressing the planning and governance issues
   we identified. Specifically, system program management performed an analysis of
   alternatives, revalidated stakeholder requirements, and developed other strategies to
   realign the program to address system challenges and concerns. Formalized governance
   processes established and supported by a new policy office contributed to these
   accomplishments. These efforts allowed the program to meet Office of Management
   and Budget requirements for program improvement, as well as acquisition review
   gateway criteria for the development of a new system release.

   Still, system program management has faced challenges implementing the new system
   release on schedule. Migration from the legacy system to the new platform has been
   delayed because of contracting and technical challenges. As a result, there is increased
   risk that schedule delays will lead to additional costs. Further, delays have caused some
   user communities to pursue other solutions for their information sharing needs.

   Although certain communities were using the system to share information successfully,
   the system was not routinely or widely used to share information throughout the
   homeland security enterprise. Specifically, the number of system account holders
   remained limited, and the extent to which those account holders were using the system
   was also constrained because of challenges with system content and performance. As a
   result, the system had not fully met its objective to support effective information
   sharing among homeland security partners.

   We are recommending that the Director of Operations Coordination and Planning
   develop a plan to increase DHS components’ adoption of the system, address current
   system performance issues through the planned system upgrade, and develop a plan to
   improve communication and collaboration with State and local stakeholders to expand
   exposure to HSIN and the capabilities that the system can provide. The Director
   concurred with the report recommendations.




www.oig.dhs.gov                                1                                       OIG-13-98

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Background
   ThefHomelandfSecurityfActfoff2002fassigned DHS responsibility to coordinate the
   Federal Government’s homeland security communications with State and local
   government authorities, the private sector, and the public.1 In support of this
   responsibility, the Department developed and continues to manage the Homeland
   Security Information Network (HSIN), a secure, unclassified Internet portal that enables
   these various stakeholders to collaborate and share homeland security information.

   The HSIN mission is to provide homeland security stakeholders with effective and
   efficient collaboration tools for decision making, secure access to data, and accurate,
   timely information sharing and situational awareness. To achieve this mission, HSIN
   provides a shared place for users to collaborate securely with features such as Connect
   (a Web conference tool) and Jabber (a chat tool). In addition, HSIN provides a
   document library for the distribution of homeland security reports and information. As
   the designated information sharing portal for DHS, HSIN also serves as the principal
   platform for interoperability with other DHS information sharing portals or for
   consolidation of such portals.

   HSIN is organized into information sharing groups called Communities of Interest (COIs).
   There were more than 1,300 COIs supporting homeland security missions; State, Federal
   agency, and private sectors; and task force, event, or incident needs. HSIN users belong
   to and share information with the COIs that pertain to their particular mission needs,
   including several nationwide COIs that are intended to support core aspects of the
   homeland security mission, such as:

         •	 HSIN Critical Sectors – Used by private sector, State and local governments, and
            Federal stakeholders to support coordination and collaboration across all 18
            critical infrastructure and key resource sectors.

         •	 HSIN Emergency Management – Used by emergency and incident management
            experts nationwide from all levels of government to respond to both manmade
            and natural disasters.

         •	 HSIN Federal Operations – Used by the DHS National Operations Center (NOC)
            and other Federal agencies for situational awareness and event response. The
            NOC uses this community to provide a variety of written deliverables, including
            analysis of ongoing situations, threat analysis, and more.



   1
       HomelandfSecurityfActfoff2002, Public Law 107-296.


www.oig.dhs.gov                                         2	                              OIG-13-98

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


       •	 HSIN Law Enforcement – Used by Federal, State, local, and tribal law enforcement
          agencies to coordinate and implement information-driven and risk-based
          prevention, protection, response, and recovery efforts with respect to all threats
          and all hazards during both routine and emergent operations.

       •	 HSIN State and Local Intelligence Community (SLIC) – Used by intelligence
          officers and analysts from the Law Enforcement, Homeland Security, and
          Intelligence Communities to meet, avert, or respond to current, emerging, and
          future threats related to homeland security.

   HSIN is the only Federal portal that provides information sharing among DHS and its
   Federal, State, local, territorial, tribal, international, and private sector partners across
   the full spectrum of the homeland security mission. It allows these diverse communities
   to work together to perform investigations, identify terrorist activities, respond to areas
   affected by natural disasters, and provide coordination during recovery operations.

   HSIN History

   HSIN has evolved significantly since it was initially developed nearly a decade ago. It
   began as a Defense Intelligence Agency–sponsored initiative called the Joint Regional
   Information Exchange System (JRIES). JRIES was designed to facilitate the exchange of
   suspicious activity reports, register events potentially related to terrorist activity, and
   foster real-time intelligence and law enforcement collaboration in a secure environment
   across Federal, State, and local jurisdictions. The Defense Intelligence Agency
   transferred JRIES to DHS in September 2003 because the domestic nature of the
   program fit better under the newly formed DHS.

   Under DHS, program management sought to expand the scope of the system. In
   February 2004, the DHS Secretary renamed JRIES as HSIN in order to reflect this broader
   scope, and designated HSIN as the Department’s secure, unclassified sharing and
   collaboration platform. Further, in January 2006, the DHS Secretary designated HSIN
   the primary system for operational information sharing and collaboration with the
   Department and with its homeland security partners, and required all components to
   use HSIN.

   In June 2006, we reported that DHS had not defined HSIN’s relationship to existing
   systems, obtained and addressed user requirements, provided adequate user guidance,
   or developed performance measures for HSIN.2 These system planning and


   2
    HomelandfSecurityfInformationfNetworkfCouldfSupportfInformationfSharingfMorefEffectively, OIG-06-38,
   June 2006.


www.oig.dhs.gov                                      3	                                            OIG-13-98

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   implementation issues limited HSIN’s ability to support State and local information
   sharing.

   In February 2008, HSIN management announced that it planned to upgrade the HSIN
   platform. This upgrade, referred to as the Next Generation of HSIN (HSIN NextGen),
   included plans to change software platforms, enhance security, add capabilities, and
   provide a new look and feel for users. HSIN NextGen was initially scheduled to be
   completed by September 2009. The upgrade, however, did not meet deployment
   timelines and performance expectations.

   In October 2008, we reported that DHS continued to face challenges defining user
   requirements, defining the information sharing process, and providing adequate user
   support.3 In addition, nationwide information sharing using HSIN remained limited, and
   performance measures to track or assess information sharing using HSIN had not been
   developed.

   In May 2010, the Office of Management and Budget (OMB) designated the HSIN
   program as high-risk, halted all system development, and conducted a review to
   determine whether the program would continue to receive Federal funding. At the
   conclusion of the review, OMB determined that HSIN was a viable program, but OMB
   established conditions relating to system user growth, portal consolidation, and
   interoperability targets that the HSIN program needed to meet going forward.

   In July 2010, the DHS Office of Operations Coordination and Planning (OPS) and the DHS
   Office of the Chief Information Officer (OCIO) signed a memorandum of agreement that
   transferred operational control of the HSIN program to the DHS OCIO while OPS
   maintained administrative control. The DHS OCIO initiated a series of program
   assessments to identify the right approach for upgrading the HSIN platform to meet the
   needs of the Department and its mission partners. This analysis concluded that the best
   approach was not HSIN NextGen, which involved transitioning to an entirely new
   software platform. Rather, the analysis concluded that upgrading the legacy HSIN
   platform based on Microsoft SharePoint software with augmented security was the best
   path forward. This approach was called HSIN Release 3. The NextGen approach was
   decommissioned in July 2011, and HSIN Release 3 development began in October 2011.
   The transition to HSIN Release 3 was scheduled to be completed by May 2013. Figure 1
   provides a timeline of HSIN’s evolution and major events since its transfer to DHS.




   3
       DHS’fEffortsftofImprovefthefHomelandfSecurityfInformationfNetwork, OIG-09-07, October 2008.


www.oig.dhs.gov                                        4                                             OIG-13-98

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security




   Figure 1. HSIN Timeline

   Results of Audit
           HSIN Planning and Governance Progress

           HSIN program management has made progress in addressing the planning and
           governance issues we identified in 2008. Management performed an analysis of
           alternatives, revalidated stakeholder requirements, and developed other
           strategies to realign the HSIN program to address system challenges and
           concerns. In addition, program management completed key planning
           documents such as the Concept of Operations, Business Case, and Segment
           Architecture to guide and define the new direction for HSIN. Formalized
           governance processes and increased high-level support and staffing following
           the HSIN program transfer to the DHS OCIO in July 2010 contributed to these
           accomplishments. As a result, the HSIN program met OMB requirements for
           program improvement, as well as acquisition review gateway criteria for HSIN
           Release 3 development.

           Plans and Strategies Revised

           HSIN program management revised its plans and strategies to better meet
           program goals. Federal law and departmental guidance require effective
           planning to ensure the success of information technology (IT) development




www.oig.dhs.gov                               5                                        OIG-13-98

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           efforts.4 To meet planning requirements, program personnel analyzed
           alternative technical solutions to identify the best approach for an upgrade to
           the HSIN platform. The analysis compared the HSIN NextGen platform, the
           legacy HSIN platform, and the platform that hosted the Homeland Security SLIC.5
           The analysis indicated that the legacy HSIN platform with upgraded software and
           enhanced security would be the best alternative because it met the highest
           percentage of user requirements with the least complicated migration path, and
           had lower life cycle and administrative costs. The HSIN Release 3 approach, as it
           was named, was presented to and received support from homeland security
           mission leadership across the Department and was approved by the DHS Chief
           Information Officer (CIO) in October 2010.

           HSIN program management conducted numerous other planning activities to
           redirect the program and support the HSIN Release 3 approach. Specifically,
           HSIN program personnel worked with stakeholders to revalidate system
           requirements. This initiative defined core requirements for migration to HSIN
           Release 3. HSIN program personnel also conducted a technical assessment to
           determine the feasibility of updating the platform to Microsoft SharePoint 2010,
           reusing existing hardware and software, implementing enhanced user security
           features, and establishing the implementation timeline. Further, HSIN program
           personnel developed a knowledge management strategy to improve information
           sharing across COIs within HSIN Release 3 to avoid information sharing
           stovepipes that had been a challenge. Program personnel summarized these
           activities in an overall HSIN Improvement Plan.

           HSIN Release 3 Development Planning Activities Completed

           HSIN program personnel completed additional planning activities and documents
           to support the HSIN Release 3 development process. Specifically, HSIN program
           personnel completed a business case in January 2011 that provided justification
           for the new direction of HSIN, an analysis of the current and proposed future
           states of HSIN, and the HSIN master schedule and development approach. HSIN
           program personnel also completed a combined Mission Needs
           Statement/Operational Requirements Document/Concept of Operations in May
           2012. This document defined the major use scenarios for HSIN, identified the
           major capability gaps that hindered the system’s effectiveness, and defined how

   4
     Public Law No. 104-106, Division E, February 10, 1996. The law, initially titled the Informationf

   TechnologyfManagementfReformfActfoff1996, was subsequently renamed the Clinger�CohenfActfoff1996f

   in P. L. 104-208, September 30, 1996. DHS AD 102-01, Interim Version 2.0, AcquisitionfDirective, 

   Instruction Appendix B, September 21, 2010. 

   5
     The Homeland Security SLIC was managed by DHS Office of Intelligence and Analysis (I&A) and hosted

   independently from HSIN on a separate platform. It has since migrated to HSIN and become HSIN SLIC. 



www.oig.dhs.gov                                      6                                             OIG-13-98

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           HSIN Release 3 would resolve these gaps once fully implemented. For example,
           this document identified six capability gaps that HSIN Release 3 would address,
           including the ability to improve search and retrieval of content using
           standardized content tagging terms.

           In addition, the DHS OCIO completed the DHS Sensitive but Unclassified Portal
           Interoperability Segment Architecture and Transition Plan in January 2011. This
           architecture provided the basis for consolidating DHS component portals onto
           HSIN. In addition, this architecture established the basis for interoperability with
           other Federal Sensitive but Unclassified portals such as the Department of
           Justice’s Regional Information Sharing Systems Network, the Federal Bureau of
           Investigation’s Law Enforcement Online, and the Director of National
           Intelligence’s Intelink-U system.

           HSIN program personnel also completed an acquisition plan for HSIN Release 3 in
           July 2012. The plan described the new agile development approach and
           methodologies to be used for HSIN Release 3.6 The plan also described how the
           program would tailor its agile approach to meet DHS system life-cycle
           requirements. This approach was intended to avoid the type of schedule
           overruns that hindered the HSIN NextGen initiative. The plan identified major
           milestones and target dates for the acquisition process.

           Governance Processes Established

           HSIN program management established several entities to provide formal
           governance processes for system development and operations. The primary
           entity for HSIN governance is the Executive Steering Committee. The mission of
           the committee is to provide effective oversight and guidance to the HSIN
           program. The committee is led by high-level officials with the Director of OPS
           and the Principal Deputy Undersecretary for the Office of Intelligence and
           Analysis (I&A) serving as co-chairs, and the DHS CIO serving as a voting member.
           It meets every month, at a minimum, to discuss the cost, schedule, and
           performance of the program. It also reports to Department-level information
           sharing governance bodies such as the Information Sharing Coordinating Council
           and the Information Sharing and Safeguarding Governance Board.

           In addition, HSIN program management established the HSIN User Working
           Group to manage stakeholder requirements better. Begun in April 2011, the
           group was composed of more than 200 core HSIN users from multiple

   6
    Agile development is a group of software development methods based on an iterative and incremental
   approach. It promotes adaptive planning, and encourages rapid and flexible response to change.


www.oig.dhs.gov                                     7                                             OIG-13-98

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           stakeholder communities. Members participated in monthly meetings to guide
           development and implementation of HSIN. The group played a critical role in
           advising program management of the feasibility and potential of system
           upgrades and soliciting user comments. At a high level, the group has ensured
           that the HSIN program has collaborated with stakeholders and system experts to
           develop and validate the upgraded information sharing platform to meet users’
           needs.

           Additional governance entities have played a role in HSIN development but have
           been in transition. The HSIN program management created the Mission
           Operators Committee in 2009 to ensure that DHS components could provide
           input into HSIN policy and to prioritize and review requirements. However, HSIN
           leadership determined that it would be more effective to dissolve the Mission
           Operators Committee and add key members of the committee to the Executive
           Steering Committee. In addition, the HSIN program management created the
           HSIN Advisory Committee in 2007 to provide independent advice from non-
           Federal stakeholder groups. The HSIN Advisory Committee, however, has been
           inactive for more than a year and a half since the Secretary initiated a
           Department-wide review of all Federal advisory committees. This governance
           body, which ensures that non-Federal partners have a voice in HSIN
           development and operations, will be reactivated upon completion of the review.
           Figure 2 lists the major HSIN governance entities.




           Figure 2. HSIN Governance Entities

           To support these governance processes further, HSIN program management
           established the HSIN Policy Office in January 2012 to ensure transparency and


www.oig.dhs.gov                                 8                                     OIG-13-98

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           accountability. The mission of the HSIN Policy Office is to ensure that the HSIN
           program obtains the trust of its stakeholders and governance bodies through the
           development of effective HSIN policy. The office has developed extensive user
           policies, ensured program compliance with privacy and paperwork reduction
           laws, and updated policies associated with HSIN governance bodies. It also
           defined the decision processes for the bodies governing HSIN to ensure
           consistent and effective management.

           Department-Level Leadership and Increased Staffing

           HSIN program management was able to reorient a high-risk program and
           develop a strategy and plans for HSIN Release 3 implementation in part because
           of the HSIN program realignment from DHS OPS to the DHS OCIO. The DHS OCIO
           was better positioned than DHS OPS to integrate information sharing,
           interoperability, portal consolidation, enterprise architecture, and knowledge
           management into the overall HSIN strategy. The move also demonstrated DHS’
           commitment to the program and its future. In addition, the DHS OCIO and OPS
           increased HSIN program staffing levels following the management shift. In 2010,
           when the DHS OCIO assumed HSIN management responsibility, five full-time
           government employees supported the HSIN program. By 2012, the number of
           staff had increased to 23.

           Program Oversight Requirements Met

           As a result of the formal planning and governance processes, the HSIN program
           has met OMB program oversight requirements. Specifically, OMB concluded in
           November 2010 that HSIN was a viable government program that should
           continue. HSIN program personnel were also making considerable progress with
           the implementation of the HSIN OMB improvement plan. Specifically, program
           management had completed five of eight conditions and demonstrated progress
           on the remaining three.

           The HSIN program has also met departmental acquisition oversight requirements
           timely. In August 2012, the HSIN program received approval from the DHS
           Investment Review Board for the first two phases of the system engineering life-
           cycle process: the solution engineering and planning phases. Further, the Under
           Secretary for Management granted provisional approval for the next major
           program review and delegated the review process to the HSIN Executive Steering
           Committee because of the program’s success in the first reviews.




www.oig.dhs.gov                               9                                       OIG-13-98

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           HSIN Release 3 Schedule Challenges 


           DHS has faced numerous challenges implementing HSIN Release 3 on schedule.
           Specifically, migration from the legacy HSIN system to the new HSIN Release 3
           platform has been delayed because of contracting and technical obstacles. As a
           result, there is increased risk that schedule delays will lead to additional costs to
           maintain the legacy HSIN past the contract expiration in May 2013. Further, user
           frustration with delays has caused some user communities to pursue other
           solutions for their information sharing needs.

           User Migration Delay

           Migration to the HSIN Release 3 platform was planned in four waves. During
           each wave, a distinct group of COIs and users were to be migrated to HSIN
           Release 3. Migration of the first wave of users was scheduled to begin in August
           2012 but actually began in November 2012, after a 4-month delay. Consequently,
           the migration schedule for the remaining three waves has been compressed in
           order to meet the May 2013 completion deadline, when the contract for the
           legacy HSIN environment expires and the system will no longer be supported.
           The migration that was planned over a 9-month period must now be completed
           in just 5 months. As of January 2013, Wave 1 was considered completed, but it
           had been scaled back to include only 8 COIs instead of the 15 originally included,
           and only 50 users instead of 300. Figure 3 shows the planned and revised
           migration schedule.




www.oig.dhs.gov                                 10                                         OIG-13-98

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




           Figure 3. Delay in HSIN Release 3 Migration Schedule

           Data Center and Technical Obstacles to Migration

           HSIN Release 3 migration was behind schedule in part because of delays
           establishing the environments for system implementation at the DHS Data
           Center 2, located in Clarksville, Virginia.7 Specifically, the award of the contract
           for establishing the environments needed to develop, test, and put the HSIN
           Release 3 system into production was delayed by 4 months. For the DHS data
           center to support HSIN Release 3, a new provision had to be added to the data
           center contract to address the unique software and security requirements of the
           system, which took time to work through. This delay reduced the time available
           to prepare these environments for system development activities from 6 months
           to just 2 months.

           Once the contract was awarded, configuration of the environments took longer
           than anticipated because of technical issues. A contract was awarded for system
           development activities required for HSIN Release 3, including setting up the
           Identity and Access Management solution. The Identity and Access
   7
     An environment is an operating system, program, or integrated suite of programs that provides all the
   facilities necessary for a particular application.


www.oig.dhs.gov                                       11                                               OIG-13-98

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Management tool was intended to improve the security of HSIN by requiring
           identity verification when new users register and two-factor authentication for
           logging onto the system.8 Implementing the Identity and Access Management
           solution, however, was more technically complex than initially anticipated. The
           initial contract was awarded with the assumption that the Sun Microsystems’
           Identity and Access Management solution would be used. However, program
           management had to switch to using the Oracle Identity and Access Management
           solution after Oracle acquired Sun.9

           The change to the Oracle solution caused unforeseen technical complications
           with integration between SharePoint and Oracle. Additional integration
           development was required, including a small amount of custom development to
           capture initial registration information in a user-friendly manner. In addition,
           the contractor had difficulty obtaining personnel with the skills required for the
           Oracle solution.

           As a result of these technical challenges, the production environment was not
           completed until July 2012, only a month before migration was initially scheduled
           to begin. The time needed for system testing then pushed back the user
           migration schedule. Program personnel had planned to perform user
           acceptance testing during the development process. The environments needed
           for system testing, however, were not complete until after the initial
           development work was done. Program management did not consider HSIN
           Release 3 ready for user migration until November 2012, almost 4 months later
           than planned.

           Impact of Delayed Implementation

           As a result of HSIN Release 3 delays, there is increased risk that migration will
           not be completed by the May 2013 deadline to shut down the HSIN legacy
           environment. HSIN program management indicated that they may be able to
           extend the contract to maintain the HSIN legacy environment for 1 month
           without incurring additional costs. After that time, the program will incur
           additional operations and maintenance costs estimated at $480,000 per month.

           Furthermore, delayed implementation of HSIN Release 3 has led some user
           communities to pursue other solutions for their information sharing needs. HSIN
           users have been promised a more secure and intuitive HSIN solution since

   8
     Two-factor authentication requires the user to enter a user name and password as the first step for 

   logging on and to receive and enter a soft token as the second step.

   9
     Sun Microsystems was acquired by Oracle Corporation in January 2010.



www.oig.dhs.gov                                        12                                               OIG-13-98

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           February 2008, when HSIN NextGen was first proposed. Therefore, significant
           pressure remains on the program to deliver a solution that meets user
           expectations timely. One State has used DHS grant funds to build its own
           SharePoint site in anticipation that HSIN Release 3 will not deliver information
           sharing capabilities timely.

           System Use

           Although certain COIs within HSIN have used the system to share information
           successfully, HSIN is still not routinely or widely used to share information across
           the homeland security enterprise. Specifically, State-level COIs have been
           successful for some States where HSIN outreach personnel have effectively
           promoted system use. In addition, some nationwide COIs, including HSIN Critical
           Sectors and HSIN Emergency Management, have developed a modest size user
           base. As a result, these COIs have demonstrated how HSIN can support
           information sharing within their communities. However, HSIN is not routinely or
           widely used to share information across the homeland security enterprise.
           Despite areas of success, system use overall remains limited because of
           numerous challenges with system content and performance. As a result, HSIN
           has not fully met its mission of supporting information sharing across the
           homeland security enterprise, despite a significant investment in the system
           over the past decade.

           State-Level Communities of Interest

           HSIN has been used effectively by some States that have set up a State-level COI.
           All 50 States, as well as the District of Columbia, the Virgin Islands, Puerto Rico,
           and Guam, have HSIN COIs. Some States have developed robust State-level
           communities with a defined role in information sharing within that State. For
           example, Louisiana has several State-level portals with an estimated 1,000 user
           accounts. Oregon has an estimated 1,200 account holders, with more than 800
           accounts within its State law enforcement portal. Georgia has more than 1,200
           users on its State HSIN communities, with approximately 700 private sector users.

           Not all States, however, have developed robust State-level communities on
           HSIN. The HSIN program did not track the number of account holders for each
           State COI, so the extent of State-level COI use on HSIN could not be accurately
           quantified. The HSIN program periodically reported on the combined number of
           State, local, and tribal users, as well as HSIN SLIC users. As of the end of May
           2012, there were approximately 9,600 active State, local, and tribal users,
           including an estimated 2,200 HSIN SLIC users.



www.oig.dhs.gov                                 13                                        OIG-13-98

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           States in which HSIN provided the most value were often those served by an
           HSIN mission advocate who effectively promoted system use. HSIN mission
           advocates were deployed to regions throughout the country to work with
           stakeholders to expand their knowledge of the system and adapt HSIN to meet
           their specific needs. Personnel we met with from the States that had robust
           HSIN State-level portals credited the mission advocate they worked with for their
           success. For example, personnel from one State said that prior to the
           involvement of a mission advocate, HSIN was used in a limited way as a
           document repository. Subsequently, personnel from this State have worked
           with their mission advocate to integrate HSIN into their business processes,
           including the processes for managing special events and working with the State’s
           terrorism liaison officers.

           States that have implemented robust State-level HSIN communities have
           demonstrated how HSIN can effectively support information sharing. For
           example, in the Gulf Coast, HSIN was used for the lead-up and response to
           Hurricane Isaac in 2012. During this event, HSIN tools such as Connect and
           Jabber were used to communicate with and train emergency responders. HSIN
           was also used to provide timely information to local hospitals, fire departments,
           and law enforcement agencies.

           In addition, the Georgia Information Sharing and Analysis Center used HSIN as a
           platform for a new tracking system, known as i-Track, for information on criminal
           leads. The i-Track system is housed within the Georgia law enforcement COI on
           HSIN, which allows it to function as a secure, Web-based solution accessible via
           any computer or smart phone with an Internet connection. Using HSIN for i-
           Track provided the ability to quickly add new users and to allow multiple people
           to view and update leads at the same time.

           Critical Sectors and Emergency Management Communities of Interest

           Certain nationwide COIs were being used to share information with a moderate
           number of system users. For example, HSIN Critical Sectors was the largest
           nationwide COI, with 13,300 users as of November 2012.10 HSIN Emergency
           Management was the second largest nationwide COI, with 11,200 active users as
           of November 2012.




   10
     The November 2012 total user number did not exclude inactive users. A May 2012 HSIN program
   report indicated approximately 14,000 total HSIN Critical Sector users; however, about 25 percent of
   these accounts were inactive.


www.oig.dhs.gov                                       14                                              OIG-13-98

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           These COIs achieved a moderate size because their COI leadership had taken
           steps to build user content and leverage collaborative tools such as Connect. For
           example, in fiscal year 2012 HSIN Critical Sectors hosted 1,408 Web conferences
           using Connect, with a total of 29,000 participants. HSIN Critical Sectors also
           reported approximately 550,000 page views in September 2012. In addition,
           during Hurricane Sandy, HSIN Emergency Management enabled multiple
           jurisdictions with incompatible emergency management systems to
           communicate with each other during the disaster response.

           Incident Response and Special Events

           HSIN has also been used effectively for large-scale and cross-State special events.
           For example, in 2010, the United States Coast Guard deployed HSIN as the main
           system for unclassified information sharing for thousands of personnel during
           the response to the Deepwater Horizon oil spill. HSIN provided response
           personnel from across the country access to daily briefings, reports, alerts,
           message board postings, and more.

           Additionally, HSIN served as the primary intelligence threat and security
           information exchange system during the United States Olympic track and field
           trials in Eugene, Oregon, from June 21 through July 1, 2012. The trials featured
           more than 1,000 elite athletes and thousands of staff, media, spectators, and
           supporters. Users at the Federal, State, and local-level used HSIN to share
           information and communicate during the trials. HSIN was used for the twice-
           daily briefings, monitoring and manipulation of security cameras, and
           intelligence log maintenance. Agencies also employed HSIN to exchange safety
           plans, credentialing guidelines, traffic control plans, and emergency response
           plans.

           Limited Overall System Use

           Despite success within certain communities, HSIN has not been used to share
           information widely across the homeland security enterprise. Specifically, the
           number of HSIN account holders remained limited, and the extent to which
           those account holders were actively using the system was also limited. As of the
           end of October 2012, HSIN had 35,560 active account holders nationwide.11
           Although system planning documents identify the potential for HSIN to grow to
           more than 300,000 users in the long term, system growth since 2007 has been
           modest, from 25,511 accounts in 2007 to 35,560 accounts in 2012. In 2006,

   11
     Active account holders are defined as having logged onto the system at least once over the period of a
   year.


www.oig.dhs.gov                                       15                                              OIG-13-98

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           HSIN program management identified a metric of increasing user accounts by
           5,000 accounts annually, with a goal of reaching 55,000 accounts by fiscal year
           2012. This goal has not been achieved. Further, OMB required HSIN to reach
           130,000 active users by 2015. To achieve this goal would require an
           unprecedented growth rate over the next 3 years. Figure 4 shows the number of
           accounts from 2007 to 2012 and OMB’s growth target for 2015.




           Figure 4. Total HSIN Accounts from 2007 to 2012 and OMB 2015 Target

           It has also been a challenge for HSIN to maintain active account holders. In
           February 2010, HSIN program personnel disabled all accounts that had been
           inactive for more than a year as part of a user cleanup initiative to enhance
           system security and cost effectiveness. As a result, the number of HSIN accounts
           dropped from 44,846 to 19,150, a loss of 25,696 accounts, which amounted to
           57 percent of all accounts. In May 2012, HSIN program personnel began to
           regularly track account activity and found that only 34,225 of the 45,489
           accounts were active.

           Further, the level of use of HSIN as measured by how often account holders
           logged onto the system was low. Figure 5 shows logon rates of 4 percent daily,
           12 percent weekly, 28 percent monthly, and 49 percent over a 90-day period.
           Conversely, more than half of HSIN account holders did not log on to HSIN over a
           90-day period.




www.oig.dhs.gov                               16                                      OIG-13-98

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




           Figure 5. Frequency of User Logon12

           System Content

           According to State and local personnel we interviewed, HSIN use remained
           limited in part because the system content was not useful.13 Specifically, several
           State and local HSIN users said that HSIN did not provide sufficient access to
           information from DHS components such as the Transportation Security
           Administration, U.S. Customs and Border Protection, and U.S. Immigration and
           Customs Enforcement. Although the NOC posted some component information
           to HSIN in summary documents, DHS component use of HSIN was limited. State
           and local personnel said that access to DHS component databases and
           intelligence reports would make HSIN uniquely valuable. Several State and local
           personnel said that they did not see a reason to use HSIN if DHS was not actively
           using and contributing to the system.

           To improve DHS component buy-in and use of HSIN, program management has
           sought to identify other information sharing portals owned and operated by DHS
           components that could be moved onto HSIN. Seven DHS component portals
           have already been moved onto HSIN, and another 10 have been identified for
           future consolidation. For example, the National Protection and Programs
           Directorate moved three of its portals onto HSIN, including its Fire Services
           portal with 3,700 users. Several portals targeted for future consolidation have a
           large number of users, such as the Coast Guard HomePort portal with

   12
      Daily, weekly, and monthly logon frequency is based on the average from January 2012 to the end of
   October 2012. The 90-day logon frequency is based on the average from May 2012, when the HSIN
   program started tracking this information, to the end of October 2012.
   13
      The HSIN program is responsible for the system platform; however, each COI is responsible for the
   content available to system users.


www.oig.dhs.gov                                      17                                              OIG-13-98

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           approximately 25,000 users. The portal consolidation plan identifies
           approximately 63,000 DHS users that would be added to HSIN when the
           consolidation is completed.

           In addition, personnel rely on systems other than HSIN to obtain information.
           There were numerous other information sharing systems that State and local
           users were more accustomed to, or found easier to use to obtain law
           enforcement, critical infrastructure, and emergency management information.
           For example, in 2006 we reported that the relationship of HSIN to existing
           Federal law enforcement information sharing systems, such as the Regional
           Information Sharing Systems Network and Law Enforcement Online, was not
           clearly defined. HSIN program management has pursued, but not achieved, a
           common logon capability with those systems since our 2006 report. As a result,
           the HSIN Law Enforcement COI has remained small, with approximately 2,000
           active users. Several HSIN Law Enforcement users said that they only log on to
           HSIN in order to keep their account active.

           Similarly, critical infrastructure protection personnel obtained information from
           other sources that provided the same kind of information as HSIN. Specifically,
           private sector personnel we spoke with said that HSIN Critical Sectors and the
           Federal Bureau of Investigation’s InfraGard system have similar information.
           InfraGard is intended to share information between the Federal Bureau of
           Investigation and its private sector partners. Further, at one location, private
           sector personnel said that a State-level critical infrastructure information email
           list service also provided them with much of the same information they received
           on HSIN and InfraGard.

           State and local personnel have also relied on the DHS intelligence officers
           deployed to their respective fusion centers to obtain information rather than on
           HSIN. Specifically, fusion center personnel we spoke to said that if they needed
           to request information from DHS, they asked the DHS intelligence officer
           deployed to their fusion center. Similarly, if they needed to receive critical
           information from DHS, they relied on their intelligence office to share that
           information with them. Further, DHS intelligence officers said that they often
           did not use HSIN and instead relied on their points of contact within DHS for
           information. Consequently, HSIN SLIC, which is intended to be the COI for
           sharing intelligence information between DHS and State and local intelligence
           personnel, remained small, with approximately 2,200 active users.




www.oig.dhs.gov                                18                                       OIG-13-98

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           System Usability

           HSIN use was also limited in part because account holders did not find the
           system user-friendly. Specifically, numerous system users we spoke with said
           that they could not easily locate information on HSIN. For example, users found
           browsing through the folders in the document library confusing and unhelpful
           for discovering new information that might be useful to them. Users said that
           old content was not archived, so a folder in the document library that looked
           relevant might not in fact be relevant because it contained old information. One
           user said that while browsing for information on chemical security, he found a
           folder that contained documents that were 4 years old.

           In addition, users said that they could not easily find information on HSIN using
           the search functionality. Search results often did not contain the specific
           documents that users were looking for, which they had previously seen on HSIN.
           For example, one user tried to find an ecoterrorism document 6 months after it
           was initially posted, and had to go through folders document by document to
           find the specific document. Users also said that search results contained too
           many documents to look through that were not relevant to the search. For
           example, one user said that a search for a particular document returned 400
           results, 350 of which referred to the same product.

           The large number of HSIN COIs also sometimes made it difficult for users to find
           and share information. There were more than 1,300 COIs as of October 2012,
           making it difficult for users to know if they had access to the right COIs, or if
           there were other useful COIs that they did not know about. System users in one
           State said that they find it easier to call their points of contact in other States for
           information requests because of the large number of COIs. These users,
           however, said that this process makes them concerned that they might miss
           information, which could lead to an inability to “connect the dots” in a serious
           situation. Further, system users could not post information to multiple COIs at
           once; instead, users had to post information to each COI separately. System
           users we met with said that they did not have the time to post information
           multiple times, resulting in information being shared less broadly. HSIN program
           management had developed a plan to reduce the number of COIs and enable
           users to post documents to multiple COIs as part of the HSIN Release 3 upgrade.
           Until these changes are implemented, however, finding and sharing information
           across COIs on HSIN remains difficult at times.




www.oig.dhs.gov                                  19                                          OIG-13-98

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Communication

           The HSIN program has made progress communicating the role of the system to
           State and local personnel through the use of mission advocates; however, cuts to
           the mission advocate program threaten this progress. In 2006, we reported that
           the HSIN program had not clearly communicated the role of HSIN to State and
           local personnel, resulting in limited system buy-in. In 2008, we reported that
           limited resources continued to hinder communication and coordination with
           system stakeholders, resulting in ongoing challenges in meeting information
           sharing requirements. Since these reports, HSIN program management has
           deployed mission advocates to improve communication with system
           stakeholders and build the user community. Although mission advocates have
           demonstrated success building State-level COIs in some regions, the mission
           advocate program had been cut significantly, from 22 mission advocates to 8,
           because of budget constraints. This reduction in the number of mission
           advocates will likely have a direct effect on the support provided to field users
           and undermine a critical element for growing the user community.

           Conclusion

           HSIN’s mission to facilitate information sharing across the homeland security
           enterprise has not been fully achieved. Some HSIN COIs were being used to
           share information; however, the overall size of the user community and the level
           of system use indicated that further progress was needed. DHS has invested an
           estimated $231 million in HSIN over 9 years but has not yet achieved the
           information sharing capability envisioned. HSIN program management has
           implemented plans and strategies to reorient HSIN through the HSIN Release 3
           upgrade that may, once completed, improve HSIN. Information sharing with
           homeland security partners across Federal, State, local, tribal, and the private
           sector is a critical DHS mission, and the HSIN system could be a critical tool for
           supporting this mission if implemented effectively.

           Recommendations

           We recommend that the Director of Operations Coordination and Planning work
           with the Information Sharing and Safeguarding Governance Board and affiliated
           DHS components to:

           Recommendation #1: Develop and implement a plan to increase DHS
           components’ adoption of HSIN as their Sensitive but Unclassified information
           sharing portal.


www.oig.dhs.gov                                20                                       OIG-13-98

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



           Recommendation #2: Identify and develop a plan to meet user requirements for
           effective content organization, reliable search functionality, and efficient
           organization of COIs in HSIN Release 3.

           We recommend that the Director of Operations Coordination and Planning work
           with the Undersecretary of Intelligence and Analysis to:

           Recommendation #3: Develop and implement a plan to improve
           communication and collaboration with State and local stakeholders to expand
           exposure to HSIN and the capabilities the system can provide.

           Management Comment and OIG Analysis

           We obtained written comments on a draft of this report from the Director of the
           Office of Operations Coordination and Planning. We have included a copy of
           these comments in their entirety in appendix B.

           In the comments, the Director concurred with our recommendations and
           provided details on steps being taken to address specific findings and
           recommendations in the report. We have reviewed management’s comments
           and provided an evaluation of the issues described in the comments below.
           These recommendations are considered open and unresolved until we receive
           and evaluate the Director’s corrective action plans.

           In response to recommendation one, the Director concurred and indicated that
           the HSIN program has made incremental progress on user adoption and portal
           consolidation since the Secretary designated HSIN as the Department’s Sensitive
           but Unclassified information sharing portal in 2006. The Director also indicated
           that partnering with the Information Sharing and Safeguarding Governance
           Board will allow the program to garner much needed support to achieve the user
           adoption and portal consolidation goals of the Department. Finally, the Director
           stated that the HSIN program will work with the Information Sharing and
           Safeguarding Governance Board and the Information Sharing Coordinating
           Council to develop and implement a plan to promote greater adoption of HSIN
           as the Department’s target Sensitive but Unclassified portal. We recognize this
           action as a positive step toward addressing this recommendation and look
           forward to learning more about continued progress in the future.

           Responding to recommendation two, the Director concurred and stated that the
           HSIN program continues to develop and implement plans for meeting user
           requirements around effective content organization, reliable search


www.oig.dhs.gov                               21                                      OIG-13-98

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           functionality, and efficient organization of COIs in HSIN Release 3. The Director
           also indicated that the program plans to deliver increased search functionality
           and improved content organization in FY 2014. Further, the Director stated that
           the program will leverage the Information Sharing and Safeguarding Governance
           Board and the HSIN Executive Steering Committee to validate user requirements
           gathered by the HSIN program and verified by the HSIN User Working Group.
           We believe that such efforts are good steps toward addressing our
           recommendation and look forward to learning more about continued progress in
           this regard.

           In response to recommendation three, the Director concurred and said that the
           HSIN program will work with the Under Secretary for Intelligence and Analysis,
           as well as other DHS offices, as appropriate, to develop and implement
           communications plans that will increase the use of HSIN and expand exposure to
           HSIN and its capabilities. We recognize this action as a positive step toward
           addressing this recommendation.




www.oig.dhs.gov                               22                                       OIG-13-98

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The DHS Office of Inspector General (OIG) was established by the HomelandfSecurityfActf
   off2002 (Public Law 107-296) by amendment to the InspectorfGeneralfActfoff1978. This
   is one of a series of audit, inspection, and special reports prepared as part of our
   oversight responsibilities to promote economy, efficiency, and effectiveness within the
   Department.

   As part of our ongoing responsibilities to assess the efficiency, effectiveness, and
   economy of departmental programs and operations, we conducted an audit to
   determine the effectiveness of HSIN in supporting information sharing among select
   stakeholders as well as progress made with HSIN since our October 2008 report, DHS’f
   EffortsftofImprovefthefHomelandfSecurityfInformationfNetworkf(OIG�09�07).

   We researched and reviewed Federal laws, Department management and acquisition
   directives, and other executive guidance related to IT systems, planning, management,
   and governance. We reviewed recent Government Accountability Office (GAO) and OIG
   reports to determine prior challenges, findings, and recommendations. Additionally, we
   searched the Internet to obtain and review documents and news articles pertaining to
   HSIN and information sharing. Furthermore, we evaluated documents that DHS OPS
   provided in July 2009 on activities to address and close our October 2008 report
   recommendations. We also obtained access to select HSIN COIs to view information
   sharing via the system. Using this information; we designed a data collection approach
   consisting of focused interviews, documentation analysis, site visits, and HSIN system
   demonstrations to conduct our followup review.

   We conducted our audit fieldwork from August to November 2012 at HSIN Program
   Office headquarters in Washington, DC. We met with key Department officials
   responsible for HSIN’s planning, implementation, program management, and
   governance to obtain information on the progress made to resolve challenges identified
   in our prior reports, assess the current status of information sharing among select HSIN
   stakeholders, and determine challenges to the planning and implementation of the HSIN
   system. These officials included members of the DHS OCIO, OPS, I&A, and other
   components. Additionally, we met with members of the HSIN Executive Steering
   Committee, mission advocates, and leaders of stakeholder communities.

   We also met with stakeholders at the following fusion centers: Sacramento, California;
   Salem, Oregon; Atlanta, Georgia; Tallahassee, Florida; Phoenix, Arizona; Austin, Texas;
   and Baton Rouge, Louisiana. Additionally, we met with United States Coast Guard



www.oig.dhs.gov                               23                                      OIG-13-98

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   stakeholders in New Orleans, Louisiana, and emergency management stakeholders in
   Austin, Texas, and Gleneden Beach, Oregon.

   At field locations, we met with fusion center directors, intelligence analysts and officers,
   security specialists, antiterrorism coordinators, private sector stakeholders, tribal
   stakeholders, HSIN administrators, and other HSIN users to understand HSIN user
   requirements and system use in the field. We discussed legacy HSIN and the extent to
   which it meets mission information sharing needs, user involvement, communication
   with headquarters, and the upcoming implementation of HSIN Release 3. We also
   discussed the use of HSIN during special events and major HSIN success stories. Where
   possible, we obtained documentation to support the information provided during the
   meetings.

   We conducted this performance audit between August 2012 and January 2013 pursuant
   to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.

   The principal OIG points of contact for this audit are Frank Deffer, Assistant Inspector
   General for Information Technology Audits, and Richard Harsche, Director of Information
   Management. Major OIG contributors to the audit are identified in appendix C.




www.oig.dhs.gov                                 24                                        OIG-13-98

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                    Office ofOperalions Coordination
                                                                    arrd Planning
                                                                    U.S. Department of Homeland ~urlty
                                                                    Washington. DC 20528


                                                                    Homeland
                                                                    Security
                                          MAY 1 7 2013

    MEMORANDUM FOR:              Charles K. Edwards
                                 Acting Inspector t:?rJ1
                                                     r   ,
    FROM:                        Richard Chavez   r-   _~
                                 Director, Office of Opera    sg::;
                                                                  ination and Planning

    SUBJECT:                     DHS Office of Inspector General Draft Report: ·'Homeland
                                 Security Information Network Improvements and Challenges"

    Purpose

    The Office of Operations Coordination and Planning (OPS) appreciates the work of the Office of
    Inspector General (OIG) in conducting this review ofthe l lomeland Security Lnformation
    Network (HSIN). Below are responses to each of the recommendations.

    Discussion

    OIG Recommendation #1: We recommend that the DHS Director of Operations Coordination
    and Planning work with the Information Sharing and Safeguarding Governance Board and
    affiliated Components to: Develop ru1d implement a plan to increase DHS components' adoption
    of II SIN as their Sensitive but Unclassified information sharing portaL

    OPS Response: Concur. The Secretary of Homeland Security identified HSIN as the
    Department's Sensitive but Unclassified (SBU) information sharing portal in 2006, and since
    then. the program has made incremental progress on user adoption and portaJ consolidation.
    Partnering with the Information Sharing and Safeguarding Governance Board (ISSGB) will
    allow the program to garner much needed support to continue to achieve the user adoption and
    portal consolidation goals of the Department. The HSIN program will work with the ISSGB and
    its subordinate council, the Information Sharing Coordinating Council (TSCC), to develop and
    implement a plan to promote greater adoption of HSIN as the Department's target SBU portal.

    OIG Recommendation #12 : We recommend that the DHS Director of Operations Coordination
    and Planning work with the Informa tion Sharing and Safeguarding Governance Board and
    affiliated Components to: Identify and develop a plan to meet user requirements for effective
    content organization, reliable search functionality, and efficient organization of COls in HSIN
    Release 3.



www.oig.dhs.gov                                    25                                             OIG-13-98

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



    OP Response: Concur. The I lSTN program continues to develop and implement plans for
    meeting user requirements around effecti ve content organization. reliable search functionality,
    and efficient organization of Communities of Interest (COls) in HSll\ Release 3 (R3). Currently.
    the HSIN program is migrating users to a new release of the platform called HSIN R3 which has
    a much better organizational structure designed for more efficient information sharing. The
    program is currently working to deliver increased search functionality and improved content
    organization in Fiscal Year 14. The program wiU leverage the ISSGB and the HSIN Executive
    Steering Committee to val idate that the plans mee t the user requirements ga~hcred by the li S IN
    program and verified by the II rN User Working Group.

    OIG Recommendation #3: We recommend tha t the DHS Director of Operations Coordination
    and Planning work with the Undersecretary of intelligence and Analysis-to: Develop and
    implement a plan to improve communication and collaboration with tate and local stakeholders
    to expand exposure to HSIN and the capabilities the system can provide.

    U.t'S Response: Concur. llle HSrN program will work with the Undersecretary of Intelligence
    and Analysis, and, as appropriate, other DHS offices with State and local eq uities, to develop and
    implement communications plans that will increase the use of HSIN and expand exposure to
    HSIN and its capabilities.




www.oig.dhs.gov                                     26                                            OIG-13-98

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Richard Harsche, Division Director
   Steven Staats, Auditor Manager
   Erin Dunham, Auditor
   Anna Hamlin, Auditor
   Kevin Mullinix, Referencer




www.oig.dhs.gov                             27                    OIG-13-98

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary, Office of Intelligence and Analysis
   Chief Information Officer, DHS Office of the Chief Information Officer
   OIG Liaison, Office of Operations Planning and Coordination
   OIG Liaison, Office of Intelligence and Analysis
   OIG Liaison, Office of the Chief Information Officer
   Director of Local Affairs, Office of Intergovernmental Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               28                            OIG-13-98

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
